<html>
<title> - CHILD NUTRITION ASSISTANCE: LOOKING AT COST OF COMPLIANCE FOR STATES AND SCHOOLS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                 CHILD NUTRITION ASSISTANCE: LOOKING AT
                         COST OF COMPLIANCE FOR
                           STATES AND SCHOOLS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 24, 2015

                               __________

                           Serial No. 114-22

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
  
  


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
            
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 95-135 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

Duncan Hunter, California            Marcia L. Fudge, Ohio,
Glenn Thompson, Pennsylvania           Ranking Minority Member
Dave Brat, Virginia                  Susan A. Davis, California
Buddy Carter, Georgia                Raul M. Grijalva, Arizona
Michael D. Bishop, Michigan          Gregorio Kilili Camacho Sablan,
Glenn Grothman, Wisconsin              Northern Mariana Islands
Steve Russell, Oklahoma              Suzanne Bonamici, Oregon
Carlos Curbelo, Florida              Mark Takano, California
                                     Katherine M. Clark, Massachusetts
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 24, 2015....................................     1

Statement of Members:
    Fudge, Hon. Marcia, L., Ranking Member, Subcommittee On Early 
      Childhood, Elementary, and Secondary Education.............     3
        Prepared statement of....................................     4
    Rokita, Hon. Todd, Chairman, Subcommittee On Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Schopp, Dr. Melody, Secretary of Education, South Dakota 
      Department of Education, Pierre, SD........................     7
        Prepared statement of....................................    10
    Payne, Mr. John, President, President, Blackford County 
      School Board of Trustees, Hartford City, IN................    12
        Prepared statement of....................................    14
    Martin, Ms. Donna, Director, School Nutrition Program, Burke 
      County Public Schools, Waynesboro, GA......................    17
        Prepared statement of....................................    19
    Harvey, Dr. Lynn, Chief, School Nutrition Services, Safe and 
      Healthy Schools Support Division, North Carolina Department 
      of Public Instruction, Raleigh, NC.........................    21
        Prepared statement of....................................    23

Additional Submissions:
    Letter dated June 22, 2015 from the Metropolitan School 
      District of Wayne Township.................................    46
    Letter dated June 22, 2015 from the Public Schools of North 
      Carolina...................................................    52
    Stories from School Districts Across the Country.............    55


                 CHILD NUTRITION ASSISTANCE: LOOKING AT



                         COST OF COMPLIANCE FOR



                           STATES AND SCHOOLS

                              ----------                              


                        Wednesday, June 24, 2015

                       House of Representatives,

              Subcommittee on Early Childhood, Elementary,

                        and Secondary Education,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Brat, Carter, Bishop, 
Grothman, Curbelo, Fudge, Davis, Bonamici, Takano, and Clark.
    Also present: Representatives Kline, Noem, Allen, and 
Scott.
    Staff present: Lauren Aronson, Press Secretary; Janelle 
Belland, Coalitions and Members Services Coordinator; Kathlyn 
Ehl, Professional Staff Member; Matthew Frame, Legislative 
Assistant; Amy Raaf Jones, Director of Education and Human 
Resources Policy; Nancy Locke, Chief Clerk; Daniel Murner, 
Deputy Press Secretary; Krisann Pearce, General Counsel; Mandy 
Schaumburg, Education Deputy Director and Senior Counsel; 
Alissa Strawcutter, Deputy Clerk; Tylease Alli, Minority Clerk/
Intern and Fellow Coordinator; Austin Barbera, Minority Staff 
Assistant; Jacque Chevalier, Minority Senior Education Policy 
Advisor; Denise Forte, Minority Staff Director; Tina Hone, 
Minority Education Policy Director and Associate General 
Counsel; Carolyn Hughes, Minority Senior Labor Policy Advisor; 
and Veronique Pluviose, Minority Civil Rights Counsel.
    Chairman Rokita: Good morning and welcome to today's 
hearing. I would like to thank you, our witnesses, today for 
joining us to share your experiences implementing the Child 
nutrition programs at the state and local levels. Thank you for 
taking care of our kids.
    We all know the important role healthy food plays in a 
child's education. We cannot expect children to learn or excel 
in the classroom if they are hungry or not properly nourished. 
That is why we on the Education and Workforce Committee have 
been examining child nutrition programs to ensure they are 
effectively and efficiently providing children access to 
nutritious meals.
    Now, it goes without saying that your commitment to serving 
students is vital to achieving that goal. But the question we 
want to answer today is, are federal policies really giving you 
the tools and flexibilities you need to succeed in implementing 
child nutrition programs so that your students can succeed in 
the classroom? Or is there a better way?
    Now, based on what we have heard from other stakeholders, 
the federal role in these programs may be doing more to hinder 
your success than to help it. Following the 2010 
reauthorization of the National School Lunch and Breakfast 
Programs, the Department of Agriculture issued a number of 
regulations that expanded Washington's influence over K-12 
cafeterias. The department has narrowly defined what types of 
food can be served in schools and how often, the maximum number 
of calories students are allowed to eat per meal and the price 
a student must pay per meal.
    Now, while these regulations perhaps are well-intended, 
states and schools are struggling to comply with them. And the 
very children we aim to serve are paying the price. While 
program costs, administrative burdens and food waste are piling 
up, portion sizes, food offerings, and the number of students 
participating in the program are on the decline.
    In my home state of Indiana, for example, the number of 
lunches served each year has declined by more than 6 million 
since the regulation went into effect in 2012. I have heard 
these concerns from my colleagues and constituents, and I have 
read the reports from government watchdogs. But as the saying 
goes, I needed to see it to believe it.
    So, earlier this year I joined students and staff for lunch 
at Cloverdale Middle School in Indiana, among many other 
schools. But there particularly we found Food Service Director 
Billy Boyette describing the challenges he and his staff faced 
to provide meals that both comply with federal regulations, but 
also appeal to students.
    From firsthand experience I can verify that despite the 
increased federal involvement in the school meal programs, many 
students are still going to class hungry. Furthermore, reports 
from the nonpartisan Government Accountability Office raise 
concerns about whether or not the resources for these programs 
are going to students who really need it most.
    If our shared goal is to increase student success in the 
classroom, and if we know that nutritious meals play a part--
important part in that success, wasting limited tax dollars 
hardly seems to yield a favorable outcome. So that is why we 
are here today, nothing more nothing less.
    As education leaders who have committed themselves to 
serving students, you four provide critical--and the folks you 
represent, provide critical insight into what is working and 
what isn't, and what types of policies Congress should consider 
as we move forward with the reauthorization process.
    It is time to provide those responsible for implementing 
child nutrition programs with the flexibility they need to 
ensure taxpayer dollars are well spent and students are well 
served. I am confident, learning from your experiences, 
observations, and recommendations, we will inform our efforts 
to accomplish just that.
    So with that, I will now recognize my friend, the ranking 
member, Congresswoman Fudge, for her opening remarks.
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee on Early 
             Childhood, Elementary, and Secondary Education

    Good morning, and welcome to today's hearing. I'd like to thank 
you, our witnesses, for joining us to share your experiences 
implementing the child nutrition programs at the state and local 
levels.
    We all know the important role healthy food plays in a child's 
education. We cannot expect children to learn or excel in the classroom 
if they are hungry or are not properly nourished.
    That's why we on the Education and the Workforce Committee have 
been examining child nutrition programs to ensure they are effectively 
and efficiently providing children access to nutritious meals. It goes 
without saying your commitment to serving students is vital to 
achieving that goal.
    The question we want to answer today is: are federal policies 
giving you the tools and flexibility you need to succeed in 
implementing child nutrition programs so that your students can succeed 
in the classroom? Based on what we have heard from other stakeholders, 
the federal role in these programs may be doing more to hinder your 
success than help it.
    Following the 2010 reauthorization of the national school lunch and 
breakfast programs, the Department of Agriculture issued a number 
regulations that expanded Washington's influence over K-12 cafeterias. 
The department has narrowly defined what types of food can be served in 
schools and how often, the maximum number of calories students are 
allowed to eat per meal, and the price a student must pay per meal.
    While these regulations are well intended, states and schools are 
struggling to comply with them, and the very children we aim to serve 
are paying the price. While program costs, administrative burdens, and 
food waste are piling up, portion sizes, food offerings, and the number 
of students participating in the program are on the decline. In my home 
state of Indiana, for example, the number of lunches served each year 
has declined by more than six million since the regulations went into 
effect in 2012.
    I've heard these concerns from my colleagues and constituents, and 
I've read the reports from government watchdogs, but - as the saying 
goes - I needed to see it to believe it. Earlier this year, I joined 
students and staff for lunch at Cloverdale Middle School in Indiana, 
where food service director Billy Boyette described the challenges he 
and his staff face to provide meals that both comply with federal 
regulations and appeal to students.
    From firsthand experience, I can verify that despite the increased 
federal involvement in the school meals programs, many students are 
still going to class hungry. Furthermore, reports from the nonpartisan 
Government Accountability Office raise concerns about whether or not 
the resources for these programs are going to the students who need it 
most.
    If our shared goal is to increase student success in the classroom, 
and if we know that nutritious meals play an important role in that 
success, wasting limited taxpayer dollars hardly seems like a favorable 
outcome.
    That's why we are here today. As education leaders who have 
committed themselves to serving students, you provide critical insight 
into what's working and what isn't and what types of policies Congress 
should consider as we move forward with reauthorization.
    It's time to provide those responsible for implementing child 
nutrition programs with the flexibility they need to ensure taxpayer 
dollars are well spent and students are well served. I am confident 
learning from your experiences, observations, and recommendations will 
inform our efforts to accomplish just that.
    With that, I will now recognize the ranking member, Congresswoman 
Fudge, for her opening remarks.
                                 ______
                                 
    Ms. Fudge. Thank you very much, Mr. Chairman.
    And thank you all so much for being here today. As this is, 
I think, maybe our fourth or fifth hearing on nutrition, I 
don't know what we will hear different today. But certainly I 
am looking forward to what you are going to say today.
    And today we are going to be examining school nutrition 
programs, as we have many times, from the eyes of schools and 
states, which both play an important role in providing school 
meals. While I am looking forward to hearing the testimony of 
our witnesses, I want to ensure we examine these programs from 
the eyes of those they are intended to serve, which is our 
children.
    Today almost one in three children is obese. Nearly 16 
million children, one in five, live with food insecurity. While 
it may not be intuitive, children can be simultaneously obese 
and hungry because many low-income families lack access to 
high-quality food.
    Just as there is a federal role in ensuring every child has 
access to a quality education, no matter where they live, what 
they look like or their family's income, there is a federal 
role ensuring every child has access to healthy and nutritious 
food, and is able to learn without the burden of hunger.
    Child obesity affects all aspects of children's lives from 
their physical well-being to their academic success and self-
confidence. That is why the health of our children should be a 
top national priority.
    For over 40 years, child nutrition programs have helped 
families who have struggled with the choices of putting food on 
the table or paying a bill. Our work to reauthorize our child 
nutrition programs presents a great opportunity to change the 
way children eat, to expand their access to nutritious meals, 
and to end the child hunger crisis in this country.
    We must ensure that schools have the support they need to 
provide high-quality meals so kids can make healthy choices. We 
must also ensure all eligible children can actually access the 
programs by removing barriers families face when enrolling in 
school meal programs.
    Today we will learn more about the work that lies ahead to 
provide all children with healthy, nutritious meals and to lead 
healthy and successful lives. Thanks to the reforms in the 
Healthy, Hunger-Free Kids Act, students across the country are 
experiencing a healthier school environment with more 
nutritious meal options.
    Studies show that kids are now eating up to 16 percent more 
vegetables and 23 percent more fruit at lunch. Over 90 percent 
of school systems report they are in compliance with the new 
federal standards.
    Maintaining quality standards for child nutrition programs 
is not only the right thing to do, but it is what American 
families overwhelmingly want. According to a recent poll by the 
Pew Charitable Trust, 90 percent, that is 9-0 percent of 
parents favor school meal standards.
    While it is important to hear from schools and states about 
challenges they may face in their programs, I am certain these 
challenges can be addressed. I thank you, and understand 
clearly that there are things that we need to fix. And we want 
to fix them.
    Mr. Chairman, I yield back.
    [The statement of Ms. Fudge follows:]

      Prepared Statement of Hon. Marcia L. Fudge, Ranking Member, 
  Subcommittee on Early Childhood, Elementary, and Secondary Education

    Thank you, Mr. Chairman. Today we will be examining school 
nutrition programs from the eyes of schools and states, which both play 
an important role in the provision of school meals. While I am looking 
forward to hearing the testimony of our witnesses, I want to ensure we 
examine these programs from the eyes of those they are intended to 
serve as well; our children.
    Today, almost one in three children is obese. Nearly 16 million 
children--one in five-- live with food insecurity. While it may not be 
intuitive, children can simultaneously be both obese and hungry because 
many low-income families lack access to high-quality healthy food.
    Just as there is a federal role in ensuring every child has access 
to a quality education regardless of where they live, what they look 
like, or their family's income, there is a federal role in ensuring 
every child has access to healthy and nutritious food, and is able to 
learn without the burden of hunger. Child obesity affects all aspects 
of children's lives from their physical wellbeing, to their academic 
success and self-confidence.
    That is why the health of our children should be a top national 
priority. For over forty years, child nutrition programs have helped 
families who have struggled with the choices of putting food on the 
table or paying a bill. Our work to reauthorize our child nutrition 
programs presents a great opportunity to change the way children eat, 
to expand their access to nutritious meals and to end the child hunger 
crisis in our country.
    We must ensure that schools have the support they need to provide 
high-quality meals so kids can make healthy choices. We must also 
ensure all eligible children can actually access these programs by 
removing barriers families face when enrolling in the school meal 
programs.
    Today we will learn more about the work that lies ahead to provide 
all children with healthy, nutritious and meals they need to lead 
healthy and successful lives. Thanks to the reforms in the Healthy, 
Hunger-Free Kids Act, students across the country are experiencing a 
healthier school environment with more nutritious meal options. Studies 
show that kids are now eating up to 16 percent more vegetables and 23 
percent more fruit at lunch. Over 90 percent of school systems report 
they are in compliance with the new federal standards.
    Maintaining quality standards for child nutrition programs is not 
only the right thing to do, but it is what American families 
overwhelmingly want. According to a recent poll by the Pew Charitable 
Trusts, 90 percent of parents favor school meal standards.
    While it's important to hear from schools and states about 
challenges they may have in their programs, I'm certain these 
challenges can be addressed. Thank you to our witnesses for joining us 
today. I look forward to hearing your testimony.
                                 ______
                                 
    Chairman Rokita. I thank the gentlelady.
    First let me note that a quorum is present. Pursuant to 
committee rule 7(c), all members will be permitted to submit 
written statements to be included in the permanent hearing 
record. And without objection, the hearing record will remain 
open for the 14 days pursuant to this hearing to allow such 
statements and other extraneous material referenced during the 
hearing to be submitted for the official hearing record.
    I will now like to turn to the introduction of our 
distinguished witnesses. And first in that regard, I welcome 
Representative Noem back to the committee to recognize her 
witness.
    Mrs. Noem. Thank you, Mr. Chairman. And I want to let you 
know that I certainly appreciate you allowing me to come back 
to the committee today to introduce Dr. Melody Schopp. She is 
our state secretary of education, and has been truly a good 
witness to some of the effects that we have seen across our 
great state.
    Dr. Schopp is a lifelong educator with 23 years of 
classroom teaching experience. She has also served as a school 
board member for 9 years. And her passion for students and 
preparing them for their postsecondary education is remarkable.
    In her role as the secretary of education, she has led 
South Dakota in implementation of new standards and evaluation 
practices and systems utilized throughout our state. She has a 
long service history in education.
    And I am excited to have her here today to testify on 
school nutrition. It is something that I have worked on the 
last several years. And she will give us a unique perspective 
as well as to the impacts this has in rural America, in smaller 
schools that have--are isolated from many more urban areas, and 
the challenges that students, teachers, school nutritionists, 
and parents face because of these new school lunch regulations, 
and their unique impact.
    So thank you, Dr. Schopp, for taking the time to make the 
long journey into Washington. It is not easy to get here from 
South Dakota. And it is not easy to get back home either. But I 
appreciate you making the trip to give us the South Dakota 
perspective today to this committee.
    With that, I yield back.
    Chairman Rokita. I thank you, Representative Noem.
    We will now turn to Representative Allen, another valuable 
member of this committee, to introduce our next witness.
    Mr. Allen. Thank you, Mr. Chairman.
    And I am very pleased to introduce my friend Donna Martin. 
Donna and Stan have been--and their family have been longtime 
friends of our family. And Donna, it is so good to see you here 
this morning.
    There is nobody that knows more about nutrition in the 12th 
district of Georgia than Donna Martin. And Donna, thank you for 
your help over the years, particularly with our family.
    But Donna is a registered dietitian nutritionist, and is 
currently the director of the Burke County School Nutrition 
Program in Waynesboro, Georgia. She is also the past treasurer 
for the Academy of Nutrition and Dietetics. She also sits on 
the School Nutrition Association Foundation board. She has 
worked in the area of school nutrition for over 23 years in 
both large systems with over 38,000 students and currently in a 
small system with 4,500 students.
    Donna's school system operates the National School 
Breakfast Program, the National School Lunch Program, the 
Afterschool At-Risk Snack Program, the Fresh Fruit and 
Vegetable Grant Program, and the Supper Program and the Summer 
Feeding Program. Donna has long been dedicated to improving the 
health of her students at school by offering nutritionally 
balanced meals that also teach the students about good 
nutrition.
    Donna has a master's degree in clinical nutrition from the 
University of Alabama in Birmingham, and a specialist's degree 
in administration and supervision from Georgia Regents 
University in Augusta, Georgia. In 2006, Donna received the 
Summer Sunshine Award for the Southeastern Region of the United 
States from USDA for innovation in implementing the Summer 
School Nutrition Program.
    Burke County is the largest landmass county in the 12th 
district and serving meals there can be a challenge due to the 
distance that you travel in that county. And believe me I have 
been to every square inch of that county. So, Donna, I don't 
know how you do it.
    Donna decided the best way to serve children was out of 
school buses that made stops throughout the county so that the 
kids would have access to summer meals. Donna has led four 
schools that receive the U.S. Healthier School Challenge Award 
at the Gold level. Congratulations on that, by the way.
    As both the representative from Georgia's 12th district and 
a member of this committee, it is indeed my privilege to 
welcome you here today. Thank you for traveling here and 
offering your expert testimony. Thanks, Donna. Good to see you.
    Chairman Rokita. Gentleman yields back. Thank you, 
Representative Allen. I will take the honor of representing the 
last two witnesses.
    First, from the great State of Indiana, Mr. John Payne is 
president of the Blackford School Board of Trustees in Hartford 
City. He currently serves as director for the Central Region on 
the National School Board Association's board of directors, and 
has also served on the board of directors for the Indiana 
School Board Association. Welcome.
    And finally, Dr. Lynn Harvey is the chief for Safe and 
Healthy Schools Support Division of the School Nutrition 
Services for the North Carolina Department of Public 
Instruction. Dr. Harvey is responsible for the administration 
of the federally funded school nutrition program. She is a 
registered dietitian, a licensed dietitian and nutritionist, a 
fellow of the American Academy of Nutrition and Dietetics, and 
is the incoming vice president of the School Nutrition 
Association.
    Welcome all of you.
    I will now ask our witnesses to stand and raise your right 
hand so that you can be sworn in.
    [Witnesses sworn.]
    Let the record reflect that each witness answered in the 
affirmative.
    And you may be seated. And before I recognize each of you 
to provide your testimony, let me briefly explain our lighting 
system.
    You will each have 5 minutes to present your oral 
testimony. For the first 4 minutes the light will be green. 
Then that last minute the yellow light will switch on. And red 
means you are past due. That is more of a reminder for us than 
it is for you. But we try to stick to it.
    So I will recognize our witnesses for testimony, starting 
with Dr. Schopp. You are recognized for 5 minutes.

 TESTIMONY OF DR. MELODY SCHOPP, SECRETARY OF EDUCATION, SOUTH 
      DAKOTA DEPARTMENT OF EDUCATION, PIERRE, SOUTH DAKOTA

    Ms. Schopp. Well, good morning, Chairman Rokita, Ranking 
Member Fudge, and members of the subcommittee. I am Melody 
Schopp, secretary of education for the state of South Dakota.
    It is really an honor to be here today. In particular 
because I am really passionate about this issue and something 
that I really care about deeply.
    As indicated before, I come with a lot of education 
experience. I spent a lifetime with 23 years of teaching, 9 
years as a school board member, and 15 years within the 
Department of Education in South Dakota. And I work every 
single day to ensure one thing: that all students are ready to 
graduate from high school college-, career-, as well as life-
ready.
    And I believe I know what goes into that environment to 
make that happen so that they can thrive and they can be 
successful. And that does include ensuring that students aren't 
hungry or malnourished.
    I want to make it very clear that I fully support the 
intent of the Healthy, Hunger-Free Kids Act. Giving students 
access to a healthy meal, it feeds the body, it feeds the mind 
and it makes them ready to learn. And that is supported by 
research as well.
    It also addresses the concerns that we all have about 
obesity that is pervasive in our country as well as in the 
State of South Dakota. I believe that one of the most valuable 
things we can do when a student walks across the stage at 
graduation time is not just to hand them the diploma, but a 
healthy lifestyle.
    The intentions of this act are noble. But the 
implementation is what I am here to talk about today, which is 
difficult, which I believe is undoing the good intentions. So I 
have three concerns I am going to share with you today. And 
these are very specific from the aspect of what a state 
education agency is required to do.
    Number one, the act is complex and has time-consuming 
review requirements. And as you know, the requirements have 
changed from 5 years to a 3-year review cycle. This has not 
resulted in identifying more problems or issues throughout the 
state and South Dakota. But instead, it has been unwieldy and 
overwhelming for my small staff.
    The paperwork burden results in excessive overtime and 
truly the inability for us to catch up and be on track. We have 
tried to address this a number of different ways. We have 
brought in additional help. We have used general funds to 
support the program. We have audited our work flow. And 
finally, we just simply aren't able to dig out of the 
paperwork.
    Second point and equally concerning is a lack of time that 
we have in providing training on the intricacies of the act 
within our school districts. We spend instead our resources on 
completing administrative reviews. There is an inordinate 
amount of time that we spend in preparing for monitoring for 
both districts and state staff. Our department staff are just 
too busy checking the boxes rather than providing the technical 
support to the districts that need it the most.
    My third concern is specific to the complexity of the 
program for both state and for local agencies. In addition to 
the 300-page guidance manuals, just this last year there were 
68 policy memos that were issued. While the flexibility is 
offered in the form of waivers, granting and approving waivers 
is intricate and very time-consuming and oftentimes difficult.
    I oversee a system of 130,000 students. I have 151 school 
districts. I have four technical institutes, a $630 million 
budget and many difficult issues that I deal with daily. But I 
spend an onerous amount of my time supporting my staff in this 
one issue, in grappling with the implementation of the school 
meals program. And that is why I am here today.
    And I don't think these concerns are specific to South 
Dakota. My fear is of districts opting out, and already that is 
happening in South Dakota with 10 to 15 of our small, rural 
districts and some of our private school districts choosing to 
drop the program due to a number of different issues. And my 
greater concern is that others will soon follow.
    I care deeply. I want to make that very clear about making 
sure we provide nutritious meals and giving kids every 
opportunity to learn. I also care about ensuring that we are 
good stewards of taxpayer money. And that does mean that we 
need to comply with federal and with state laws.
    But instead of celebrating compliance, I really believe we 
should turn our focus to ensuring that students are hunger-free 
and that they are healthy. My hope is that Congress can reduce 
the amount of time and effort that we are spending on 
compliance and instead letting us focus on making sure that 
kids are well fed, which leads them to be well-educated and 
healthy, contributing adults. Thank you very much.
    [The testimony of Ms. Schopp follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
   
    
    Chairman Rokita. Thank you for your testimony.
    Mr. Payne, you are recognized for 5 minutes.

TESTIMONY OF MR. JOHN PAYNE, PRESIDENT, BLACKFORD COUNTY SCHOOL 
           BOARD OF TRUSTEES, HARTFORD CITY, INDIANA

    Mr. Payne. Chairman Kline, Senior Democratic Member Scott, 
Chairman Rokita, and Ranking Member Fudge and members of the 
subcommittee, thank you for the opportunity to testify on child 
nutrition, a critical issue that affects students' health, 
well-being, and ability to learn.
    I am an elected official on the Blackford County School 
Board of Trustees in Indiana, where I have served for 22 years. 
I also serve on the Indiana School Board Association board of 
directors and on the board of the directors of the National 
School Board Association. I care very much about child 
nutrition, and advocate for school districts to have the 
flexibility needed to provide each school-aged child a healthy 
and nutritious meal.
    We know that healthy students learn better. Children and 
youth who eat nutritious food are active, stay healthier, 
perform better in school and learn behaviors that will keep 
them healthier throughout their lifetimes. Yet, the 2010 
federal law, which aimed to improve the critical nutrition and 
hunger safety net for children has resulted in unintended 
consequences that challenge school districts' ability to 
deliver on its promise.
    In my school district, students are slipping through a one-
size-fits-all net, either opting out or declining to eat food 
that lacks appeal. Blackford County Schools is a public school 
corporation in east central Indiana located about 45 miles 
south of Fort Wayne and 90 miles northeast of Indianapolis. 
Blackford County is a mostly rural, heavy in agriculture and 
some light industry. Our board approves a $17.8 million budget, 
which includes personnel, debt service for buildings, capital 
projects, transportation, instruction, and school nutrition 
programs.
    In Blackford County, 55 percent of our 1,750 students are 
eligible for free and reduced-priced meals. For students from 
low-income families, school meals may be the best or even the 
only food they eat each day. So when students who need a proper 
meal are not eating, I am concerned.
    I would like to point out some unintended consequences and 
challenges experienced for the last few years for Blackford 
County Schools. Perhaps the most colorful example in my 
district is that students have been caught bringing in and even 
selling salt, pepper, and sugar in school to add taste to a 
perceived bland and tasteless cafeteria food. This contraband 
economy is just one example of many that reinforce the call for 
flexibility.
    Further, since 2012, student participation in free and 
reduced priced meals has decreased from 56 to 54 percent in my 
district, with a rise in food waste. Students are avoiding 
cafeteria food. More students bring their lunch. And a few 
parents even check out their child from campus, taking them to 
a local fast food restaurant or home for lunch.
    It is clear now with the new restrictions which students 
are from low-income households and which are not because the 
free and reduced priced meal has no additions or extra 
portions, whereas the students able to purchase from the a-la-
carte menu can obtain more food.
    Some kids cannot drink or dislike milk. Our district tried 
to provide needed calcium to those students with juice, but was 
cited by the School Nutrition Department within our state 
education agency and was forced to discontinue the practice.
    The one-size-fits-all portions may be too small for 
students who rely primarily on school meals, or active and 
athletic students who need more and resist being told to eat 
more broccoli to fill the void.
    Children who do not typically eat or recognize certain 
foods avoid and dispose of them. In my district, whole grain 
items, most of the broccoli, end up in the trash.
    Some food-based in-school fundraisers have been eliminated.
    The clear solution to these problems is local leadership 
and flexibility. When local school districts have the authority 
and the flexibility to make adjustments honoring the spirit and 
intent of the law, they can provide students with healthy, 
nutritious and appetizing meals.
    NSBA's 2014 pulse poll on school meal requirements 
corroborates the call for flexibility with responses from 
nearly 650 districts in at least 36 states. Sixty percent said 
that local flexibility would help them provide good nutrition 
without harm to instruction, personnel, and other school 
district operations.
    In conclusion, improving the quality and expanding access 
to school meals is vital to America's school-aged children and 
our nation. School districts are critical partners in the 
effort to assure a healthy and positive learning environment 
for the children to receive their full potential.
    The Child Nutrition Act reauthorization is an opportunity 
to firmly support local leadership. Our bottom-line objective 
should be that each school-aged child, through effective local 
governments, receives healthy, nutritious, and appetizing 
meals.
    I again thank you for your time, and am happy to respond to 
any questions. And, Mr. Chairman, if I could, I do have a 
written document from Wayne Township Schools in Indianapolis if 
I could submit it for the record.
    [The testimony of Mr. Payne follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairman Rokita. Without objection we will take that 
submission. Thank you for your testimony.
    Ms. Martin, you are recognized for 5 minutes.

   TESTIMONY OF MS. DONNA MARTIN, DIRECTOR, SCHOOL NUTRITION 
   PROGRAM, BURKE COUNTY PUBLIC SCHOOLS, WAYNESBORO, GEORGIA

    Ms. Martin. Thank you. Chairman Rokita, Ranking Member 
Fudge, committee members, and my fellow distinguished 
panelists, I am honored to have the opportunity to speak before 
you today. My name is Donna Martin and I am the director of the 
school nutrition program for Burke County Public Schools in 
Georgia.
    Our program serves five schools and offers breakfast in the 
classroom, grab-n-go breakfast, lunch and afterschool snacks, 
supper, the fresh fruit and vegetable grant, and the summer 
feeding program. Our district, located near Augusta, is mostly 
rural and has a free and reduced percentage rate of 100 
percent. We operate under the Community Eligibility Provision.
    I first entered the school nutrition field nearly 25 years 
ago after becoming a registered dietitian and working in 
pediatrics. It is not simply serving meals and counting money.
    It is conducting nutrition education with students, faculty 
and parents, planning menus that meet federal nutrition 
guidelines, working with computer systems to master your point-
of-sale programs, production records, training and supervising 
of staff, managing a $4 million budget, writing specifications 
for equipment, and placing bids for foods.
    It means essentially running a restaurant, a PR agency, and 
a classroom all while under a tight budget with minimal time 
and resources. Being a food service director today is a ton of 
work, and I think it is the best job on earth.
    Burke County Schools serves nearly 4,000 meals a day and 
has a lunch participation rate of 89 percent, and a breakfast 
participation rate of 78 percent. We have not seen a decrease 
in our participation rates based on the new standards.
    We started moving to healthier foods in our district even 
before the new standards were required. And you can bet that I 
was nervous. But we did it gradually by introducing rolls for 
25 percent whole wheat flour.
    You have ever been to Georgia, you know we take our fried 
chicken, biscuits, and grits incredibly seriously. So we went 
to work and developed a delicious baked herb chicken and 
featured locally-grown, whole-grain grits that are absolutely 
awesome. And yes, we have whole-grain biscuits, and yes our 
kids eat them.
    I am also incredibly proud of our Farm-to-School program 
that provides farm-fresh produce to our students, including 
delicious Georgia peaches and blueberries, that hopefully you 
have the opportunity to enjoy today.
    Taste those and tell me if you think a student would throw 
any of these away. Instead, they are always wishing they were 
getting more than a half-cup serving of them. We found that 
when we started offering local fresh fruits and vegetables like 
collards, cabbage, corn on the cob, broccoli, carrots, berries, 
melons, peaches, our consumption rates doubled.
    I am also proud of how we have met the needs of our 
community. When our high school football coach came to me with 
concerns about his players not getting the fuel they needed to 
be successful, we worked together to provide dinner after 
practices to make sure they were well-nourished. As a 
registered dietitian, it brought me great joy to know they 
weren't just filling up on empty calories, but nutritious foods 
that were good for them.
    I also think it is important to note that we started this 
program in 2010. The notion that high school athletes only 
started to get hungry after updated nutrition standards went 
into effect in 2012 is false. They were hungry because they did 
not have access to food after school. And that was the case 
before and after the standards.
    When it comes to access to summer meals for kids, our rural 
community faces challenges in delivering the meals, like many 
communities do around the country. Burke County is 836 square 
miles of land, but only has 22,000 residents. Traditional 
feeding sites simply did not meet the needs of our community.
    I worked with my district and community to find solutions 
and now we run 15 bus routes and over 100 stops all over the 
county, feeding 2,500 children for 8 weeks during the summer. 
We are getting healthy foods to kids when they need it, and 
also providing employment for my staff during the summer. In 
communities like ours, that matters.
    Now that I have shared some of the highlights of our 
program, you are probably wondering, what is the cost of 
running a successful program? We are a fiscally sound program 
because we offer fresh fruits and vegetables that are in 
season.
    We work with our farmers to provide local fruits and 
vegetables at very competitive prices and coupled with the long 
shelf life of these products, we have very little spoilage. We 
use our commodity dollars very wisely to purchase food that 
helps stretch our food dollars. We also do a lot of scratch 
cooking, which controls the cost of the food and the sodium 
content of the food.
    I am not here to tell you that it is easy. But I am here to 
tell you that it is possible to meet nutrition standards and be 
financially solvent.
    We could do better for our students if reimbursement rates 
were increased to accommodate rising food costs; and if there 
were supplemental funding for equipment and training needs. But 
we would do worse for them if we lowered the bar to accommodate 
the cost by not serving them what they need to grow and 
achieve.
    In closing, I thank each of you for taking the time to 
listen to our story from Burke County Schools and for your 
commitment to students around the country through child 
nutrition programs.
    I respectfully ask each of you to keep our children's best 
interests in mind as you move forward with the reauthorization 
of child nutrition programs that impact so many children across 
the country. We demand the best of our schools, and for our 
students in every other part of the campus. And our cafeteria 
should be no different.
    Thank you once again, Chairman Rokita, Ranking Member 
Fudge, and committee members. I would be happy to respond to 
any questions that you may have.
    [The testimony of Ms. Martin follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Chairman Rokita. Thank you very much, Ms. Martin. And we 
will now recognize Dr. Harvey for 5 minutes.

TESTIMONY OF DR. LYNN HARVEY, CHIEF, SCHOOL NUTRITION SERVICES, 
   SAFE AND HEALTHY SCHOOLS SUPPORT DIVISION, NORTH CAROLINA 
   DEPARTMENT OF PUBLIC INSTRUCTION, RALEIGH, NORTH CAROLINA

    Ms. Harvey. Thank you, Chairman Rokita, Ranking Fudge, 
other members of the committee. We appreciate the opportunity 
to discuss the cost of meeting nutrition standards for school 
meals and snacks. I have submitted more extensive written 
comments and examples from across the country to support my 
remarks today.
    It is an honor to represent the North Carolina Department 
of Public Instruction. The department oversees the school 
nutrition programs in all 115 school districts. And we have the 
privilege of serving nearly 1.5 million students.
    North Carolina's public schools were among the first to 
comply with the nutrition standards, meeting the USDA's target 
date of June 30, 2013. Despite the robust level of compliance, 
school officials are concerned about the impact of new 
regulations that, while well intended, have increased the 
complexity of the programs and created unintended consequences.
    Compliance provides schools an additional 6 cents per 
reimbursable lunch. However, 6 cents is not sufficient to 
support the lunch requirements, let alone the cost of serving 
more whole grains and fruit at breakfast, for which no 
additional funds have been provided.
    Compliance has come at a significant cost for schools in 
North Carolina, and more important, for students. Student 
participation in school meals has declined by 5 percent under 
the new rules.
    Over 90 percent of school nutrition directors report the 
requirement for all grains to be whole-grain rich, is the 
leading cause of student dissatisfaction. While student 
acceptance of some whole-grain products like breads and rolls 
has been encouraging, student acceptance of other products, 
like biscuits and crackers, has been dismal.
    For 2 years, school nutrition directors have offered these 
items under ideal conditions, and have encouraged students to 
try them. Yet, students continue to reject them because their 
taste, texture, and appearance are quite different from that to 
which they are accustomed. Students refer to these foods as 
``imitation foods'' and tell us they are unpalatable, and 
therefore unacceptable.
    Biscuits, as you have heard are popular breakfast items in 
our state. Student satisfaction with whole-grain rich biscuits 
has led to a decline in breakfast participation in 60 percent 
of our school districts. No amount of training or technical 
assistance for schools can change students' distaste for foods 
that look and taste unappealing to them.
    Thanks to the whole-grain waivers provided by Congress in 
the omnibus appropriations bill, North Carolina has granted 110 
waivers, covering over 2,300 schools. The waivers allow the 
districts to balance the requirement for whole-grain rich and 
enriched grain products. Districts that have implemented the 
waivers are reporting a rebound in student participation, 
especially at breakfast.
    Another source of student dissatisfaction is the lack of 
flavor as a result of the sodium requirements. Schools have 
made tremendous efforts to make meals more flavorful. Yet 
students tell us low-sodium foods simply do not taste good. And 
as a result, many are choosing to skip school meals altogether.
    We have also seen an increase in food waste, as students 
are forced to take items they do not like and do not intend to 
eat. The level of waste is disturbing in a state where nearly 
60 percent of students are economically disadvantaged, and 27 
percent of students experience hunger on a regular basis.
    Another unintended consequence has been the loss of a-la-
carte revenues under the Smart Snacks requirement. The Smart 
Snacks compliance has been staggering in North Carolina with 
over $20 million in lost revenues this year. Nutritious, 
appealing a-la-carte menus should be a convenient part of the 
school dining experience, while simultaneously providing a 
critical revenue source for school nutrition programs in the 
absence of other funding.
    These and other conditions are emerging to create 
significant financial challenges. Over half the school 
nutrition programs in North Carolina are operating at a revenue 
loss. The average loss is nearly $2.5 million. Since 
implementation of the new standards, the average month's 
operating balance for school nutrition programs has been 
steadily declining.
    Twenty school districts have negative operating balances in 
their school nutrition programs, such that local education 
funds must be used to keep the programs financially solvent. 
Another 21 have less than 1 month's operating balance, and will 
be unable to pay their monthly obligations at the beginning of 
the school year without support from the district's General 
Education Fund.
    As you begin the process of reauthorizing the child 
nutrition programs, we would respectfully request the following 
flexibilities as a means of enabling local school nutrition 
directors to operate programs that promote optimum student 
participation that includes, of course, the consumption of 
nutritious, appealing foods while ensuring the financial self-
sufficiency and sustainability of these programs.
    First, please make the current waivers for whole-grain rich 
products permanent, thus requiring half of all grains to be 
whole-grain rich. Second, maintain the current Target 1 sodium 
levels until such time as scientific evidence is clear about 
the role of sodium in the diets of children and adolescents. 
Third, require schools to offer as many fruits and vegetables 
as possible, and allow students to select as much as they will 
eat. But do not force students to take a fruit or vegetable. 
And finally, modify the Smart Snack standards to allow any food 
or beverage served as part of the reimbursable meal to be 
served as an a-la-carte item.
    Our goal in North Carolina is to operate the school 
nutrition programs in a manner that reflects our commitment to 
nutritional, operational, and financial integrity. Thank you 
for your consideration of our requests.
    [The testimony of Dr. Harvey follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Chairman Rokita. Thank you, Dr. Harvey.
    We will now recognize members for 5 minutes worth of 
questioning. I appreciate that Chairman Kline was able to be 
here for this hearing. I am going to hold my question to the 
end in order to accommodate as many fellow members as I can. 
That brings us to the gentleman from Florida, who is recognized 
for 5 minutes.
    Mr. Curbelo. And I thank the chairman for his leadership on 
this issue, and for giving us so many opportunities to explore 
these programs as we prepare for potential reauthorization. And 
I would like to thank all of you for your time here today.
    I spent a little over 4 years on the Miami-Dade County 
Public School Board, so I am familiar with the challenges that 
school districts and local communities face. And what I wanted 
to ask is, I am looking here. We have six federal child 
nutrition programs, each with their own rules, eligibility 
criteria, requirements, compliance requirements.
    In my mind, a more simply system, perhaps fewer programs, 
less regulation, would help school districts and really 
schools--we are talking about principals better manage their 
schools and do everything in their power to make sure that kids 
aren't hungry and that they are getting you know a healthy 
diet.
    What are some of your ideas for how we could reform this 
system, perhaps collapsing some of these programs, 
consolidating them, and giving our school districts, our states 
the opportunity to figure out what the best way to address this 
obesity crisis that we have, the fact that some kids are 
hungry, which we cannot ignore?
    If you all could kind of give me your--in 30 seconds or in 
1 minute, your ideal framework for these federal nutrition 
programs? We can start here.
    Ms. Schopp. I would be happy to begin.
    I think you said it well in your opening statement about 
the number of different programs and the regulations that need 
to be more succinct and put together. So one of those things 
that we are seeing is that the multitude of regulations that we 
have to interpret and help school districts interpret takes 
away time from really implementing the program with fidelity. 
So definitely, number one would be that piece of it is really 
reducing those amount of oversight.
    The second thing, from a state agency perspective, but I 
think the school districts feel the same. The requirements for 
the 3-year cycle for reviews really is overwhelming for the 
amount of time that we spend preparing rather than just 
implementing the program.
    And I made a--I think the best example I have of that, one 
of my tiny districts stated that they spent more time, more 
hours preparing for the review than they have students in their 
district spent 100 hours preparing. They have 90 kids in their 
district. So we need to be thinking about ways in which we can 
address that and be more logical in our approach to the 
reauthorization.
    Mr. Curbelo. Thank you.
    Mr. Payne. Yes, sir. And echoes through our local school 
board members and other districts in Indiana is just some 
flexibility, and whether that means a consolidation of some 
programs or just some flexibility at the local level to make 
these meals appealing, not ignoring the nutrition and healthy 
part of that.
    We want to provide healthy, nutritious meals, and that is 
important, but some local flexibility to increase the appeal so 
that these children are eating their lunches and not throwing 
them away, or parts of it.
    Ms. Martin. I think what I would like to see is some 
seamless integration between the Child and Adult Care Food 
Programs that operate the supper and afterschool snack programs 
with school districts, making it much easier for them to 
operate both programs and not have to go through two different 
agencies, two different accrediting bodies.
    And the same thing like we did with the seamless summer 
programs, combining those together, making it easier, if you 
have a school nutrition program that you can already operate 
all those programs, because it takes a lot of time and effort 
to apply for all those things and go through all the different 
auditing things.
    The other thing we are seeing is school nutrition directors 
working with lots of different smaller systems, helping them be 
successful in their programs. So they are mentoring them. And 
SNA and USDA has got a lot of great training programs out 
there, and the National School Food Service Management 
Institute is doing these mentoring programs.
    And I think it will help these people be successful, 
because there are a lot of us that are successful. We just need 
to bring up those people that are not successful.
    Ms. Harvey. Thank you. And I would echo Dr. Schopp's 
comments about the administrative review process. Integrity is 
important to the program. But a process that would enable us to 
identify those school districts or those school food 
authorities at greatest risk, and review those more frequently 
would be more helpful, instead of reviewing everyone every 3 
years because it is part of the review cycle.
    I would also echo Ms. Martin's comments that a seamless 
transition between the school nutrition programs and the Child 
and Adult Care Food Program would be important. For example, in 
North Carolina, two distinct agencies operate these programs, 
for important reasons. If a school district is authorized by 
one agency to participate in the federally funded programs, it 
should be a simple transition to operate the program operated 
from another state agency.
    Mr. Curbelo. Thank you--
    Chairman Rokita. The gentleman's time is expired.
    Mr. Curbelo. Thank you very much, Mr. Chairman.
    Chairman Rokita. I thank the gentleman.
    Ranking member of the full committee, Mr. Scott is 
recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Martin, it is my understanding that 90 to 95 percent of 
school divisions report that they are in compliance with the 
new standards. What would happen if we reduced the standards?
    Ms. Martin. Well, I don't think there is any parent out 
there that doesn't want the best nutrition for their child. And 
I also don't think there is any taxpayer out there that doesn't 
want their federal dollars going to the best nutrition that we 
can provide for these kids.
    I think the future health of our kids is one of our most 
important commodities. And I think that it is so important. We 
know that scientific evidence says that kids need more fruits 
and vegetables, and need more whole grains.
    We know that. And so to turn around and say that we are not 
going to require the kids to pick up a fruit or vegetable, I 
just know when kids are encouraged to pick it up, they have a 
much better chance of eating it when it is on their plate than 
when they are sitting down and somebody else is eating 
delicious blueberries, and they go oh I wish I would have 
gotten those, it is too late.
    So I think you do things by cutting up the fruit, making it 
appealing, offering fresh local things and working with your 
farmers. And our farmers are so excited about this Fresh Fruit 
and Vegetable Program that we have going and that kids are 
eating more fruits and vegetables.
    We need to help our farmers. And this is such a great way 
to help them by getting and increasing the consumption like 
Representative Fudge said. So, I think it would be a disservice 
for us to go back.
    Mr. Scott. And if we did go back, would you think most of 
the school divisions would in fact lower their standards?
    Ms. Martin. Well, I think there are a lot of great people 
out there like these school districts. We are going to--I am 
going to continue to do what we have been doing no matter what 
because I think it is the best thing for the children.
    I think there are a lot of school nutrition directors that 
are also the maintenance director and the transportation 
director and they are over several different programs. And 
their heart is not necessarily in school nutrition.
    Sometimes it is a principal that didn't do a good job. So 
they said let him be the school nutrition director or her be 
the school nutrition director. And so they would be happy to 
serve the kids pizza and french fries. Nobody would complain 
and it would be cheap and easy.
    So I think that we need to ensure that does not happen.
    Mr. Scott. And are there some long-term costs that are 
incurred when you do not provide good nutrition?
    Ms. Martin. Oh my gosh. We are all dealing with health care 
costs right now. That is one of the biggest risks that this 
country is facing. And we have the opportunity here to change a 
generation.
    We have an opportunity to raise kids that when they go into 
McDonalds, they want a whole wheat hamburger bun. And I was 
just at the Subway at the airport. Everybody was buying whole 
wheat bread. And I said, wouldn't this be great if this was 
what everybody was like?
    So we have such a tremendous opportunity to make a 
difference in the long-term healthcare costs of this nation, 
just by teaching our kids to be lifelong good eaters. So yes, 
it is a financial--I say put the money in up front instead of 
later on when they are overweight, diabetics, hypertensive, 
heart disease, and needing gastric bypass.
    Mr. Scott. Thank you.
    Now, the need for good nutrition doesn't stop when the 
summer starts. What can we do to encourage more programs to 
participate in the summer program?
    Ms. Martin. Well, we need to be creative. And that is what 
we did in Burke County. And I am seeing more and more school 
systems being creative by getting buses and transforming them 
into food trucks.
    They are going to libraries. They are going to rec 
departments. We have considered putting a bus in our local 
Walmart so that the kids when they come to Walmart can have 
lunch.
    Our kids start asking about summer feeding at the end of 
the year. They start asking the bus drivers, when is it going 
to start? They get so excited about it.
    It also helps our little kids get ready to come to school 
because they like the bus drivers and it is a very positive 
experience for them. And our local farmers are so thrilled 
because we are serving their blueberries and their peaches. And 
our schools--when we do our school lunch, we are doing corn on 
the cob and other fresh fruits and vegetables.
    So our farmers are benefiting and our staff is working. And 
it is just a fabulous program in our county. We are also 
offering educational opportunities for the kids, getting them 
caught up.
    They will come to summer school because of breakfast and 
lunch. And our graduation rates, like every other school 
system, are important to us. And when we can get them there to 
learn, and if they are coming for breakfast and lunch, I am 
okay with that, and so are the teachers okay with that.
    Mr. Scott. Thank you.
    Dr. Schopp, you mentioned the administrative expenses. Can 
you say a word about what community eligibility does for 
reducing administrative expenses?
    Ms. Schopp. The Community Eligibility Program has been 
great for South Dakota. But what I want to really emphasize 
here is that this is--my solution to this entire thing is I 
need to clone Ms. Martin. I need 151 of her in the State of 
South Dakota, which is not possible.
    And so I think the issue is not about--I am all about the 
whole--I am all about the healthy meals. I am all about 
promoting that within the state. The issue is that the 
technical assistance we can provide, and I am going to take you 
to South Dakota, I want to give you this picture of a 
reservation school that is not only isolated, but is 150 miles 
from the nearest Walmart, when I don't have those opportunities 
to provide bussing services for those children in the most 
remote areas. So I would love to speak more about that piece.
    Chairman Rokita. Gentleman's time is expired. I thank the 
gentleman.
    The gentleman from Wisconsin is recognized for 5 minutes.
    Mr. Grothman. Thank you much. Thanks much. I am kind of new 
on the job here. When I ran I kind of ran on the idea that 
Washington wasn't necessarily good at doing a lot of things. 
And I will tell you, this committee has taught me that more 
than anything.
    I mean you know we hear about the VA and how the government 
can't run a hospital, and TSA and how they can't find the gun 
that is being snuck on board. But not--to force you to serve 
food that hungry kids throw out maybe tops the list of things 
the Federal Government--evidence that the Federal Government 
shouldn't be doing things.
    I have a question. I will start with you, Dr. Schopp. If we 
got rid of these rules and just gave money to South Dakota, say 
the average amount of dollars they got the last 3 years, to 
serve lunch, do you think you would be able to come up with a 
way to serve healthy, tasteful lunches to your children?
    Ms. Schopp. I want to emphasize again that I don't believe 
that the money is going to solve the issue of where our 
concerns are with requirements to the program. So, I don't 
know. A person who is in the food service--as a food service 
director feels passionately about making sure the kids are fed 
well, have healthy meals, et cetera. That is bottom line for 
all of this.
    Mr. Grothman. Great--
    Ms. Schopp. The message that we have is that we just really 
need to make sure that we are being logical in our approach to 
make an effort--
    Mr. Grothman. Right. I will maybe restate the question. I 
don't know how much South Dakota got last year toward their 
breakfast and lunch programs. What do you think $10 million? I 
don't know. Just take a number out of the year.
    Ms. Schopp. Probably less.
    Mr. Grothman. Okay. Would you think it would be an 
improvement for you or easier for you if rather than having all 
these requirements and paperwork, if we just cut the State of 
South Dakota a check for $10 million or $5 million or whatever 
and let you serve the kids with whatever you felt was 
appropriate for lunch.
    I mean people have been serving lunch to hungry children 
for thousands of years. It is not rocket science. You know in 
elementary school we learned you know fruits, vegetables, 
dairy, grain, meats, I mean that sort of thing. Do you think 
you would be able to handle it if we just wrote you a check?
    Ms. Schopp. Thank you. I believe that the concern is 
exactly what you are saying, is that this is not a one-size 
fits all program that we have across. And so I believe that 
individual states are able to make those decisions based on 
good practice, et cetera. So giving the state the dollars it 
would need, I believe that they could manage the program 
effectively, but still focusing on the fact that we need to 
serve the healthy meals to our children.
    Mr. Grothman. Thank you.
    Same thing for you, Mr. Payne.
    Mr. Payne. I think that the biggest thing in that would be 
that local flexibility in our states. Yes, the money is nice. I 
actually have our cafeteria fund in our local districts--in my 
local district is healthy. It is not a money issue for us 
personally. But the local flexibility is the biggest thing that 
they would need to do that.
    Mr. Grothman. Right. And I don't think we are going to 
reduce the amount of money for school lunches. I am just 
saying, if instead of giving you all this paperwork, all these 
mandates, we just said here, State of Indiana, here is a check, 
would that make it easier for you to operate and your children 
more likely get food that they eat rather than throwing out?
    Mr. Payne. Yes.
    Mr. Grothman. Thank you.
    And Ms. Harvey, or Dr. Harvey, same question for you.
    Ms. Harvey. Thank you. I think it is important to have a 
uniform system of accountability so that there is 
accountability for our taxpayer dollars. As you have heard, 
what we need are modest modifications in the rules to enable us 
to provide foods that children like and will accept.
    Mr. Grothman. So you don't think in North--you think North 
Carolina does need federal bureaucrats to tell your kids what 
to eat?
    Ms. Harvey. We certainly would appreciate the flexibility 
from this body to make those modifications that we see are 
pertinent for those cultural food habits particularly.
    Mr. Grothman. Okay. I will follow up with Congressman 
Scott's question. So in other words, you feel without these 
mandates the people who run the North Carolina schools would 
wind up serving unhealthy, fattening foods to the kids?
    Ms. Harvey. Not at all.
    Mr. Grothman. They need our assistance to tell them what to 
do?
    Ms. Harvey. They are extremely committed to nutritional 
integrity in their programs. I think that people do look 
forward to the opportunity to operate consistently. This 
affects the marketplace so that there are products in the 
school nutrition procurement pipeline, if you will, that every 
state can choose to utilize.
    Mr. Grothman. Doesn't the North Carolina Department of 
Public Instruction, couldn't they provide for that uniformity 
on their own without the federal government telling them how to 
be uniform?
    Ms. Harvey. We--again, we appreciate the partnership among 
the federal, state, and local as we look at the preamble to the 
National School Lunch Act. It is intended to be a partnership 
among federal, state, and local governments. And perhaps we all 
need to revisit our commitment to that initial promise from 
1946.
    Mr. Grothman. Okay, one final comment for you all. When you 
go back home you can also talk to your government teachers in 
the high schools--you can make sure that for the next 
generation of congressmen they do a good job of educating the 
children as to what would be the federal role or the state role 
or our local school district role in our government.
    Chairman Rokita. Thank the gentleman. The gentleman's time 
is expired.
    Gentleman from California is recognized for 5 minutes.
    Mr. Takano. Good morning, everyone. And I get a sense from 
all of you that you have really the health of our children and 
young people. And I sense that from every single one of you at 
the table there.
    Dr. Harvey, can you tell me--thank you for your testimony. 
Thank you for your hard work in bringing North Carolina schools 
into compliance with the meal standards. I sense that you are 
not saying that you are against federal rules and federal 
standards. You want to fine tune them. You want to refine them 
so that you can work with them.
    But you--I saw you nodding your head a lot during the 
comments of Ms. Martin. Have you been able to make use of the 
buying power of these districts? Or have your districts made 
use of the buying power to support your local farmers for these 
fresh fruits and vegetables in the way that Ms. Martin has in 
her area? Do you have stories like that to tell us?
    Ms. Harvey. We do indeed. We have a very successful Farm-
to-School program. One of our concerns, however, as state 
participation has declined, you are perhaps aware that student 
participation is tied to our commodity entitlement.
    As that student participation has declined, our commodity 
entitlement, which gives us purchasing power for both national 
commodities, but to purchase locally grown fresh produce as 
well, has declined by $3.4 million. So our ability to purchase 
in the marketplace has been somewhat limited--
    Mr. Takano. It is because of student participation and not 
eating the things that you are putting before them?
    Ms. Harvey. Well, that--it is because they are choosing not 
to eat--
    Mr. Takano. Choosing not to eat?
    Ms. Harvey.--meals at school.
    Mr. Takano. Have you tried--you know, have you system wide 
tried things like salad bars, and position those salad bars 
first, the way that my school district has, so that the 
students are encouraged to choose the healthy choices first? 
And that is not--those sorts of strategies aren't working?
    Ms. Harvey. They are working quite well.
    Mr. Takano. Okay.
    Ms. Harvey. We have always, being an agricultural state, 
offered an abundance of fresh fruits and vegetables. Our 
students continue to select those.
    Where we are challenged is at the point of service where we 
have to force a student to take a food that he or she does not 
intend to eat. That becomes our issue. We want to continue to 
offer an abundance of fresh fruits and vegetables, and 
encourage students to select as much as they will eat. We just 
don't want to force children to take a food that they will not 
eat.
    Mr. Takano. I understand.
    There is a question I wanted to ask about--well, Ms. 
Martin, I want to kind of turn to you a little bit about this.
    We have heard a lot about--in the testimony today about 
broccoli. And it is kind of related to this question. I mean I 
think George Bush doesn't like broccoli, right? I forgot which 
of our Presidents spoke--disparaged broccoli.
    But we all want to know--we all know broccoli is good for 
us. You talk about your consumption rates of broccoli doubling. 
And while we heard others say they throw it away. Can you 
answer for us? It is a familiar question to all parents. How do 
you get kids to eat broccoli?
    Ms. Martin. Oh my gosh. That is not that hard. If you give 
them ranch dressing, they will eat anything.
    [Laughter.]
    And we make the most delicious fat-free ranch dressing with 
our nonfat dry milk and our low-fat mayonnaise. So they love 
broccoli.
    We also put it in our stir fry. And so they come in the 
next day. If there is any stir fry left, they eat it there.
    And what we do to encourage fruits and vegetables is we do 
packaged salads every day. We don't do salad bars. We do 
packaged salads every day, which have romaine lettuce and 
spinach in it, which means they get their dark green vegetable.
    And when they take that entree salad, they have already got 
their vegetable, they have got their meat and they have got 
their crackers in there. And so they are ready to go.
    We also do red beans and rice. We do fruit and cheese 
plates. So sometimes they pick up the entree and they already 
have their fruit or vegetable. And so we are not having to 
encourage them.
    What we do have a problem with sometimes is they have 
loaded up so many fruits and vegetables on their tray that they 
cannot balance their trays--
    [Laughter.]
    Because we do so many choices. So, instead of doing 1,000 
servings of cantaloupe, we do 400 servings of strawberries and 
400 servings of oranges and 400 servings of cantaloupe--
    Ms. Martin.--and all those different things.
    Mr. Takano. Let me just get to the--my signal light--my 
time is slipping away here. But you talk about a lot more 
scratch cooking.
    Ms. Martin. Right.
    Mr. Takano. And I know Dr. Schopp talked about I could use 
a lot of Dr. Martins or Ms. Martins in her state.
    Ms. Martin. Right.
    Mr. Takano. I am wondering if there is a human resource 
challenge. Because my food service director of my largest 
school district talks about employing people more full time 
because we are doing more scratch cooking, all the fresh 
purchasing. I imagine trying to get that personnel is a 
challenge.
    Dr. Martin, you are kind of--Dr. Schopp, you are nodding 
your head about that. I mean?
    Ms. Schopp. Definite challenge in our state just due to 
geographic challenges, number one. The individuals who I just, 
you know, serving on a school board for a number of years and 
being in a school, a lot of times the people who have stepped 
into those positions as food service directors don't have the 
experience and don't have the background.
    And even with the amount of training that we try to 
provide, it is exactly where I go back to. As a state agency we 
are spending all of our time in compliance--
    Mr. Takano. My time is running out. But I would love to 
explore this challenge a little more about how we help states 
like yours--
    Chairman Rokita. Gentleman is correct. Gentleman's time has 
expired. I thank the gentleman.
    Gentleman from Virginia is recognized for 5 minutes.
    Mr. Brat. Thank you, Mr. Chairman.
    Let me get this over here a little bit. I kind of give the 
same preamble to all my remarks. Even if the press says I ask 
long-winded questions. But I will try to make the preamble very 
short.
    In 16 years we run out of all federal revenues for all 
discretionary programs, under current law. And it is nothing 
the budget committee can change.
    So the budget committee currently has discretion over about 
one-third of the budget. In 16 years it is zero. So, all 
federal revenues will be taken up by about four programs, plus 
interest costs coming up.
    So that is the window we are operating within. And part of 
that is due to the entitlement issues. And you can go to the 
Medicare Board of Trustees and look it up and they will say we 
are insolvent, a federal program, major federal program, by 
2032. Social Security Board of Trustees, insolvent.
    So the federal program, great intentions, but bad at math. 
Right? Great intentions setting up all these programs. It is 
pretty simple if you look at the years what our solutions have 
to be on those programs.
    Now, let me just--I will just read you a paragraph related 
to this program. And it will take a minute. And then I will be 
done, and if each of you want to give 30 seconds kind of 
response to this. But it fits within the broader context of us 
going south on the finances.
    Since the implementation of the Healthy, Hunger-Free Kids 
Act in 2010, federal costs and involvement in the school meals 
program have increased. In 2010 the National School Lunch 
Program cost $10.6 billion. In 2014 it cost $12.6 billion, so 
from $10.6 billion to $12.6 billion in a couple years.
    And since the feds issued their final regulation nutrition 
standards in the National School Lunch and School Breakfast 
Programs in 2012, compliance costs and burdens on schools and 
states have dramatically increased, with food nutrition service 
estimating compliance costs of $3.2 billion by 2016.
    At the same time, a GAO report found that participation in 
the National School Lunch Program declined, participation 
declined by 1.2 million students from 2010-2011, to 2012-2013, 
while the costs are going up by over $1 billion.
    So costs to the taxpayers are going up by the billions. 
Cost to the states have gone up. Compliance cost to the schools 
have gone up by the billions. And participation of students has 
gone down. Cost more, does less.
    Can any of you relate to these numbers in terms of federal 
logic coming down to the state level? Do these numbers make 
sense to you? Just give me your input in 30 seconds each. Start 
with Dr. Schopp--
    Ms. Schopp. Mr. Brat, quickly; this was just timely the 
other day. One of my school districts, my largest school 
district's headline was ``Mitchell School District lunch prices 
could see an increase.'' Costs of the lunch went up $0.15 per 
meal.
    The federal regulations quote from the superintendent, 
``dampened participation rates in the National School Lunch 
Program,'' and down by 79 percentage points in five of the 
largest schools in his district. And he attributed to federal 
mandates, ongoing deficits in the meal program. So it is a very 
specific example for my state.
    Mr. Brat. Thank you. Thank you.
    Mr. Payne. Yes, sir. From my state I see that the one thing 
that our district is focusing on right now is more professional 
development for those food service workers. So those costs are 
going to increase. Even though we are healthy now, we see that 
increasing, and also with the fresh fruits and vegetables, 
which we want to bring in, and will.
    Those are--that is all going to cost more money. So and 
then if the federal funding is decreased, now you are going to 
be increasing lunch costs to those students. And where it is 
going to affect is the low income or students in poverty. That 
is who it is going to affect.
    Mr. Brat. And so you are saying some of the cost increase 
is due to professional development, training and personnel?
    Mr. Payne. Yes.
    Mr. Brat. That is a driver of--I mean we just want some 
hints as to how to get more money to the kids.
    Mr. Payne. Sure.
    Mr. Brat. And Ms. Martin?
    Ms. Martin. Representative Brat, I would probably suggest 
that probably you don't go to the grocery story very often. And 
if any of you in here do go to the grocery store, you realize 
food costs have increased.
    Mr. Brat. Oh yes. I am a Walmart shopper. My constituents 
know me in aisle three.
    Ms. Martin. Okay. Okay. So that has been what we have seen 
been one of the biggest drivers in our costs is just--and I go 
to the grocery store, too.
    But we are also seeing health care costs for our--I have 
all full-time employees, and it costs me $9,000 a year per 
employee for their health care. And that is one of the reasons 
they choose to work for school nutrition is for health care. So 
that is a huge, huge driver.
    And I think that some of the participation rates come from 
the fact that parents are struggling financially. And if they 
have to pay $2.50 for a lunch they will say, I will do a 
Lunchable for $1.00 and be to the good.
    Mr. Brat. Thank you. Thank you. These are all helpful. 
These are--thank you.
    Ms. Harvey. Investing in the health and wellbeing of our 
nation's children is one of the most important investments we 
can make. We know that hungry children cannot learn. They don't 
perform their best in the classroom. They don't grow up to 
graduate from high school and go on to be responsible citizens 
and ultimately taxpayers.
    We all benefit when we nourish children the best we can.
    Chairman Rokita. Gentleman's time is expired. I thank the 
gentleman.
    Gentlelady from Massachusetts recognized for 5 minutes.
    Ms. Clark. Thank you, Mr. Chairman. And thank you to all 
the panelists.
    And Dr. Harvey, appreciate the comments you just made 
because I really see all of you as partners in education. It is 
more than just feeding kids who happen to be at a school 
building. It is really about how do we have healthy students 
ready to learn. And you are an integral part of that. So I 
appreciate it.
    And I also want to congratulate you, Dr. Harvey. Coming 
from a state where 89 percent of the school districts are fully 
compliant with school nutritional standards, you are really 
setting a high bar in North Carolina. And we appreciate it.
    I am also a huge consumer in my family with three teenage 
boys, of school lunches. And I have a devout and strict 
pizzatarian in my middle son.
    [Laughter.]
    And so I wanted to talk to you a little bit and explore 
with you a little bit more about the a-la-carte menu.
    One of my concerns is that we have done all this work in 
trying to make sure that there are good choices available. And 
I know that my son, if he could get pizza with a side of tater 
tots, will do that. And I do also want to express the power of 
ranch dressing as an amazing, amazing vehicle.
    But I--so I am concerned that we would be inadvertently 
creating a loophole in trying to expand a-la-carte items that 
are offered when we are--you know we would be getting around 
looking at that balanced meal all together, which is so much of 
the work that you are doing. And we want to work around 
flexibility to make that happen.
    But you know, I think the issue really does come down to 
being able to keep this program, keeping up with food prices 
and commodities, and also making sure that we can keep the 
price something that our low-income families can afford so they 
don't choose the $1.00 Lunchable, that they come and take part.
    Do you see the a-la-carte? Has it really come down to 
reimbursement? Is that where this issue is?
    Ms. Harvey. We certainly agree with you. And any option, 
the reimbursable meal or the a-la-carte meal, we want to offer 
the students the most nutritious options available to them.
    So a serving of a pizza that is made according to school 
nutrition specifications that is a very nutrient dense product 
with a side salad would be quite appealing to many students. 
One day they may not like the item on the reimbursable menu. 
This gives them another option.
    We hear from students as well who have greater calorie 
needs, athletes for example, who participate in the 
reimbursable meal program, but then would like a little 
something else to tide them over because their energy needs are 
much greater, given that point in their lives. So I think work 
with our menu planners to help them understand that we want to 
continue to offer a wide variety in both the reimbursable meal 
and the a-la-carte meal would be very helpful.
    We do depend upon the revenues from a-la-carte meal sales 
in North Carolina. There are no state funds to support the 
program. So we have essentially the paying price and we have 
federal reimbursement. It is just not possible to make the 
program financially solvent with those two revenue sources.
    So we want to combine our commitment to children's health 
and well-being with the ability to generate additional revenues 
so as to prevent these programs from having become dependent 
upon those general education funds.
    Ms. Martin. And could I add something along those lines?
    Ms. Clark. Sure.
    Ms. Martin. We have the issue with the athletes that were 
always saying they were hungry. So we developed a program where 
we actually give all of our athletes little menus. And it tells 
them every day which items are highest in calories so they can 
maximize their calories.
    And we also have athletes who need to lose weight. And so 
they also know which ones are the lowest in calories. So they 
carry their menus around at breakfast and lunch so they know 
what to eat.
    And we have offered the afterschool snack program for them, 
trying to give them extra calories. So we give them these 
peanut butter and jelly bars that they call crack bars. They 
love them so much, 290 calories, and a carton of chocolate 
milk. So they get over 400 calories just for a snack that helps 
them get through to practice.
    So we have put point-of-sale nutrition labeling on 
everything so that our teachers love that and our kids know 
what they are getting, if they want more calories, if they want 
less calories, they are informed about how to do it.
    Ms. Clark. You know, you have brought up your snack 
program. I have been very impressed with what you have been 
able to do with weekend meals, summer meals, snack programs.
    You know our food insecurity issues among children in this 
country, the richest country in the world, are shocking and 
deplorable. What do you feel, of any of those programs--is 
there one that stands out to you as one of the best ways to get 
at food insecurity?
    Chairman Rokita. Gentlelady's time is expired. If you want 
to take 5 seconds you can go ahead.
    Ms. Martin. Okay. I think supper for getting our kids to 
come after school and increase their graduation rates. And then 
I think summer, the food insecurity issue is huge. So it is a 
tossup between those two, sorry.
    Chairman Rokita. I thank the gentlelady. Gentlelady's time 
is expired.
    I will recognize myself for 5 minutes for some questioning. 
Before I get to some specific ones, I just want to--sometimes I 
find myself having to clear up the record. I just want to be 
certain of this.
    Each one of you supports serving healthy meals to kids, 
correct?
    Chairman Rokita. Okay. Let the record reflect each answered 
in the affirmative.
    And the concerns you raised today in the flexibility that I 
understand all, if not most of you are asking for, is simply to 
make the program work in your schools and for students, right?
    Chairman Rokita. Correct? And the answer to--all answered 
again in the affirmative.
    Okay. Appreciate everyone's testimony.
    Ms. Martin, you talked about changing a generation. I 
appreciate that very much. I think it is--while we are all 
hearing the benefits, the preventative medicine, so to speak, 
of doing this early in life. I can believe in those things. In 
fact we are trying to reform other programs in those same 
regards, whether it is Medicaid, Medicare, or Social Security.
    You also talked about--or you worried about lowering the 
bar. These others have talked about flexibility.
    And it seems to me the way I interpret the testimony, not 
just yours but others' piece of testimony that I have heard in 
other hearings, is that if we don't have these federal 
regulations, if we don't have this oversight that Dr. Harvey 
alludes to or talks directly about from the federal level, then 
we are going to automatically lower the bar. And I just don't 
know if that is accurate. It seems to--you know you are saying 
that if you give flexibility we are lowering the bar.
    Dr. Schopp, you are nodding your head.
    Ms. Schopp. I--
    Chairman Rokita. What do you think? I mean--
    Ms. Schopp. I truly don't believe that--I don't think 
that--specific to where I am here today is not to take away the 
fact that we want to feed healthy meals. And not lowering the 
bar, but simply to be logical in the way that we are requiring 
compliance with the requirements that are currently within the 
act. And I truly don't believe that there would be an intention 
to go back to serving chili and caramel rolls on Fridays in our 
school district, as we used to do.
    So I believe that federal oversight does not drive what 
good practices are now being implemented. And I don't think 
that is the concern about the healthy requirements. My concern, 
again, is very specific to the amount of paperwork, compliance 
regulations that are making it very difficult for us to really 
support our districts in implementing good practices within 
their schools, and making sure that our students in all of our 
school districts, which are again so varied across the nation.
    I don't have the fresh fruits and vegetables available to 
me in some of my very--
    Chairman Rokita. There was another question. Yes, I 
appreciate that. Some of us wish we lived in Georgia, I guess.
    Ms. Schopp. Yes--
    Chairman Rokita. And North Carolina for these peaches and 
whatnot.
    Ms. Schopp. Right.
    Chairman Rokita. But, Mr. Payne, you mentioned leadership 
when you summed up your testimony. I think my question goes to 
this as well. I mean what do you think about lowering the bar 
versus flexibility--
    Mr. Payne. Yes, I--
    Chairman Rokita.--versus 150 more of the Ms. Martins that 
Dr. Schopp needs, et cetera?
    Mr. Payne. Oh yes, that is fascinating there what Ms. 
Martin is doing. And no, I don't believe it would be lowering 
the bar because the importance for me as a school board member, 
and as a parent of six children, four adult, two still in 
school. And I can share with the ma'am there that has the 
teenage sons. I have one that is 13 that is constantly grazing.
    So I think that it is important, that flexibility, and to 
bring those kids along, and such as an offering of these fresh 
fruits and vegetables instead of forcing them to take them. For 
instance, a colleague in Mishawaka, Indiana just shared with me 
that they had two-and-a-half trash bags of whole apples in an 
elementary school that were thrown away.
    Chairman Rokita. Yes. I have stuck my head in a lot of 
garbage cans lately at school cafeteria, and I have seen some 
of that as well.
    The specific question, again for Dr. Schopp in the less 
than a minute that I have, can you discuss some of the unique 
challenges you have in a very rural state, including many 
Indian reservations, tribal communities, and that kind of 
thing? And what does--what do these federal laws and 
regulations, how do they impact that?
    Ms. Schopp. Number one, the issue with not having qualified 
food service directors that no matter what sort of technical 
support we give, it is a huge challenge in our state to find 
that. The other fact is just the distance in being able to get 
the fresh fruits and vegetables to be able to sustain those 
programs with fidelity.
    And I think that also in offering some of the things that 
we have for students, whether they are afterschool programs or 
summer school programs, are very difficult and different that 
we can't even explain within that setting of whether it is 
rural. Also the number of what we call colony schools with 
Hutterites that there are unique challenges with them as well.
    Again, the one-size-fits-all, good intentions, but does not 
always work within a rural state.
    Chairman Rokita. Thank you. I thank you all again. My time 
is expired.
    I recognize the gentlelady from California for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thanks to all of you. I am sorry that I missed some of 
your early comments. But hopefully if I repeat those questions 
you can respond.
    One of the things that I know we are all concerned about, 
accuracy, streamlining the process, making it easier for you 
all to do your job, and certainly for young people to benefit 
and to be able to achieve. So I wonder if you could just talk 
about the community eligibility option, whether that proves 
useful in what you do in making sure that the programs are well 
utilized.
    And also the community eligibility option and making sure 
that, really this attempt to be sure that families are not 
creating all the errors by some of the difficult hoops that 
they have to go through in order to be part of the program.
    Ms. Martin. I would like to respond to that if I can, since 
we operate under the Community Eligibility Provision.
    I think it is the best thing since ice cream and sliced 
bread. It is so fabulous that my parents don't have to fill out 
applications.
    They don't--everything is going on behind the scenes. I 
don't have to worry about error rates. I don't have to worry 
about when Dr. Harvey comes in to audit me that everything is 
not right because everything has already been standardized and 
checked, and all that has been done on the front end.
    And what is great about it when you operate under that 
program is every kid comes through the lunch line and nobody 
feels like they are eating the free lunch and nobody is 
stigmatized. Everybody is eating a no-cost lunch. And everybody 
is equal in the lunchroom. And I think that is a very important 
thing. Some kids that is the only time they are on equal ground 
is in the lunchroom.
    Mrs. Davis. Do you wonder why it is not better used?
    Ms. Martin. I think a lot of states don't understand it. 
And I think the Title I programs get very, very nervous about 
it, thinking it is going to change their funding. And I had to 
do a lot of educating with our Title I people and our school 
board people and our superintendent to make them understand. 
But they love it now. And I think it is one of the best things 
you all have ever done. And I want to thank you from the bottom 
of my heart for it.
    Mrs. Davis. And I don't know whether others want to respond 
to that.
    Ms. Harvey. I would very much like to. The Community 
Eligibility Provision has been a wonderful provision. It has 
de-stigmatized the school nutrition environment. The walk to 
the school cafeteria should never be a walk of shame for any 
child. And so it has been a great relief to see children who 
are all enjoying their meals together.
    I would say that one of our concerns is that when we offer 
meals to students at no cost, and unfortunately many still 
choose not to consume the meal, we have our work cut out for us 
to make sure that our standards are set in a manner that 
encourages children to eat them. Therefore I continue to echo 
the need for the waiver for whole-grain-rich products and the 
limitation on sodium so we can encourage students to consume 
the meals that they are offered at no cost.
    Agreed, great program.
    Mrs. Davis. I am wondering in those schools where you have 
more participation whether everybody is involved, whether the 
teachers there or the superintendent, the librarian, the 
custodians. I mean whether there is kind of a buy-in so that 
people have ways of chatting with kids informally about what 
they ate today.
    You know, do you see programs--and I know, Ms. Martin, you 
certainly spoke highly of your programs--where that really does 
become a much more engaged community at the school site, not 
just out in the community itself?
    Ms. Martin. When we started breakfast in the classroom 
program, the teachers did not want it. But once we started it, 
after 2 weeks the principal said I will never get rid of this 
program because it is allowing our teachers to have time to 
interact with the students, to get to know them, to know what 
is going on in their home lives. They never have that time 
during the day. So that has been a huge thing to bring the 
community together.
    But I think there are lots of other things that we do. We 
get the kids involved in developing salads that they want. So 
then they have their own school salad. So we get them involved. 
We survey them. We have them on committees. We say what can we 
do to improve the program?
    We even let the teachers make suggestions. The teachers 
came up with this carrot souffle idea, and we did it. So 
getting all of them involved, but our teachers love the fact 
that they don't have to count money in the morning. They don't 
have to worry about Johnny forgetting his lunch, and they don't 
have to worry about taking a meal away--
    Mrs. Davis. And the lack of flexibility that I know is an 
issue for folks. You don't think this gets in the way of those 
kinds of initiatives--
    Ms. Martin. No. Absolutely. And I am teaching my parent--my 
adults to eat better too, not just my kids.
    Mrs. Davis. Yes. Real quickly, are we--do we have a 
baseline so that now that we have the nutrition program that we 
really have volunteers throughout the country and school 
districts that are trying to see, okay, did it make any 
difference? Are kids feeling that they have more energy in the 
day, that they feel like they are able to apply themselves? 
What is different?
    Chairman Rokita. In 5 seconds, please.
    Mrs. Davis. Do you know? Anybody studying it?
    Ms. Martin. I think we need research in that area.
    Chairman Rokita. Thank the gentlelady. The gentlelady's 
time is expired.
    The gentlelady from Oregon is recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Chairman Rokita. And 
thank you to chairman and ranking member for holding this 
hearing. And thank you to all the witnesses.
    Like Congresswoman Davis I was in another hearing, but I 
have read through your testimony. And I am really encouraged 
that we are having this hearing today about the importance of 
child nutrition. And I hope that we can pursue a bipartisan 
reauthorization of the child nutrition program, including the 
school meals program.
    So, Ms. Martin, I appreciate that you see your job as more 
than serving meals. And you are so enthusiastic. It is 
wonderful. The nutrition education that you provide not only to 
the students, but also to the parents and communities seems to 
be one of the reasons why your program is so successful.
    You know we have heard some stories about students refusing 
to eat certain foods or skipping meals. I think that is a 
complex issue with probably a lot of different reasons, 
including sometimes lack of time. Oftentimes the schedule is so 
short that students don't have time to eat. And if they don't 
eat really quickly, they miss play time or recess time. So 
scheduling is part of it.
    I have done a lot of tours like the chairman. I, however, 
do not stick my head into the garbage cans. But I have had a 
lot of really interesting experiences, sitting down, having 
meals with students.
    Some of our schools have wonderful Farm-to-School programs, 
salad bars, gardens in the classroom, and the education where 
you know they grow a broccoli plant and then talk about--watch 
it grow and talk about how it grows. Well, then of course they 
are really interested in finding out what it tastes like. So 
those things really make a difference.
    So can you expand just a little bit on how important 
nutrition education is in really getting the students to try 
new things and to passing that message along to their families, 
as well?
    Ms. Martin. Well, you bring up a very important thing, and 
that is we need more time at lunch for the kids to eat. Because 
we are offering and serving them more fruits and vegetables, it 
takes more time for them to eat those fruits and vegetables. So 
they need more time. And lots of times that is the reason they 
are throwing the food away.
    Also, all of us have gone to lunch and our eyes were bigger 
than our stomachs were and we have got more food on our tray. 
But I think a key thing is you have got to cut up the fruit. We 
never serve a whole apple. We always cut it up. And they will 
eat it a lot better that way. We always cut up our oranges. 
They don't have time to peel an orange and eat it.
    We also do recess before lunch. If you put a kid in there 
for lunch and they know they are going to recess, they are not 
going to eat anything that you do.
    So we also do nutrition education things on the table so 
when the kids come to lunch, they read about what they are 
getting through their fresh fruit and vegetable that afternoon, 
snack, and you can see all the little sticky fingerprints all 
over it. So we know that they are reading it.
    And we know that they--we send information home with them. 
But it is a long process. But we are making tremendous strides. 
And we have got to stay the course.
    It takes time to change those taste buds from liking high 
sodium to low sodium. And when they go home, one last thing, 
and they have high-calorie, high fast food that is high in 
sodium and they are eating a bag of potato chips, it is hard to 
get them to come to school and want low-sodium foods.
    Ms. Bonamici. Right. Well, you anticipated my next question 
because you mention that your school district really started 
introducing healthier foods before they were required--
    Ms. Martin. Right.
    Ms. Bonamici. And your testimony suggests that one reason 
has been--it has been successful is because you made the 
changes gradually. So can you talk about the importance of 
schools implementing nutrition standards incrementally?
    For example, the final sodium targets are scheduled to take 
effect in the 2022-2023 school year when today's fourth graders 
are high school seniors. So what are you doing now to help 
those students be accepting of healthier foods, and seen that 
phase-in--
    Ms. Martin. Well, I think we are working with 
manufacturers. And they are going to be the key in trying to 
help us lower the sodium in our foods because a lot of the 
foods that a lot of districts that don't have kitchens rely on 
foods that are already produced. And so they are incrementally 
lowering their sodium amounts. And I think that is going to be 
awesome.
    So but I think we need to educate the parents at home to be 
lowering the sodium in their foods at home in order to 
accomplish those goals. But I think--I am concerned about 
deregulating things and every state doing different things 
because the manufacturers could never produce one chicken 
nugget for Georgia and one for North Carolina and one for 
Oregon. So it would create mass chaos if everybody did their 
own thing.
    Ms. Bonamici. Thank you very much. And I mentioned this 
before, but I was in our state legislature when we passed 
legislation to take the junk food out of the vending machines. 
And the most persuasive testimony came from the students.
    Ms. Martin. Right.
    Ms. Bonamici.--in high school. They came in and testified 
that they were really conflicted because they would be in a 
health class learning about nutrition and then they would walk 
down the hallway and see these vending machines full of junk 
food.
    And the manufacturers really did a great job of stepping up 
and coming up with healthy snacks that are available now to 
those students. So we are making progress--
    Ms. Martin. Some parents want stricter standards than we 
are doing, people. They want stricter standards.
    Ms. Bonamici. Right. Well, thank you very much for all of 
you--
    Ms. Harvey. May I respond, as well?
    Ms. Bonamici. Of course, Dr. Harvey.
    Ms. Harvey. You are so correct. Nutrition education is a 
vital portion of the program. Engaging teachers to make sure 
that nutrition education is part of every classroom in the 
country is important.
    But one of the great successes we have is the Fresh Fruit 
and Vegetable Program where fresh fruits and vegetables are 
available to, largely elementary schools. Children can taste 
these foods as snacks. They learn about them. It creates a 
pathway to encouraging children to try new fruits and 
vegetables in the future.
    Ms. Bonamici. Absolutely.
    Chairman Rokita. Gentlelady's time is expired.
    Ms. Bonamici. My time is expired, but I--
    Chairman Rokita. I thank the gentlelady.
    Ms. Bonamici.--but I am concerned that, Dr. Schopp said 
that you didn't have access to them. But we will follow up.
    Chairman Rokita. I thank the gentlelady. Perhaps the 
ranking member would like to follow up on that. She is 
recognized for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman. And I thank 
you all. It has been a very interesting group today. And I 
appreciate all of your testimony.
    I do want to just correct one thing that my colleague Mr. 
Brat said about not being able to change the law. That is what 
we do. We are legislators. We make laws and we change laws.
    It was this body that created the sequester which most of 
us believe today was not a smart thing, whether we admit it 
publicly or not. And I certainly hope at some point we will 
have the courage to change it.
    I certainly agree with you that $0.06 reimbursement is not 
enough. I agree with you as well that we need to streamline all 
of the paperwork.
    We had the secretary of agriculture here just a week or so 
ago to discuss this same topic. We asked him about trying to 
find a way to streamline it to make it easier for us to do 
evening programs, summer programs, et cetera. So it is 
something that we all agree on.
    Just a question: Did any of your schools have deficits in 
your cafeteria or school programs before 2013? If you did could 
you just raise--
    [Nonverbal response.]
    Okay. So it is not all necessarily just because of the 
changes in the law. I just want to be clear about that.
    Also I just still want to be clear on the fact that though 
we believe that there is much, much too much paperwork, on the 
one hand we have people constantly talking about waste, fraud, 
and abuse. And so maybe we have gone too far. But we also have 
to be good stewards of tax dollars. And so maybe as we do too 
often, go too far. But we want to be sure that we can say we 
have verified that these resources are going to where they need 
to go.
    And so, I agree that we have some work to do. But what I 
appreciate is that each and every one of you understands the 
importance of feeding young people, making sure that they have 
a good start.
    And so I thank you. And we will do all we can to try to 
make it better. And trust that we have the ability to do it. We 
just don't have the will.
    I thank you. And I yield back, Mr. Chairman.
    Chairman Rokita. I thank the ranking member. Seeing no 
other members wanting to ask questions, I will move--you are 
yielding your closing, or that was your closing. I appreciate 
your efficiency.
    I will try to--
    Ms. Fudge. I stayed within my time.
    Chairman Rokita. Yes. That is wonderful. I will try to 
match you and just say thank you.
    Thank you for each of you for being here. Thank you for who 
you represent. I happen to think, if it wasn't clear from my 
questioning, that folks on the ground at the local level do 
wonderful work. I happen to believe there are many of you out 
there, many more of you out there, including you, Ms. Martin.
    Ms. Martin. There are many, many of us--
    Chairman Rokita. And there are thousands of others that are 
out there.
    I don't think anyone wants to--you know let's say these 
regulations go away tomorrow. I don't know anyone in your 
profession wants to then take a bunch of frozen french fries 
and stick them in a deep fryer and that is going to be the end 
of it. I just don't believe that because it is not what I have 
seen.
    So thank you. Thank you for the leadership you provide this 
country because you are growing our best--helping grow--helping 
grow because the primary responsibility still is the family. 
And that is a whole different hearing, but helping grow our 
best asset, our children.
    Also, what I took away today was that this was not about 
just the money and how much or how little there is. This is 
about leadership, as Mr. Payne so rightly suggested. And it is 
about creativity. And it is about flexibility. So that wherever 
these rules come from, that there should be standards and allow 
us to work within them so that we can best supply, you know, 
our constituents--your constituency, which again are these 
kids.
    So thank you very much. Seeing no more business before the 
committee, this hearing is adjourned.
    [Additional submissions follow:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     
    
    
    
[Whereupon, at 11:32 a.m., the subcommittee was adjourned.]

                                 <all>
</pre></body></html>
